Roderick and Solange MacArthur Justice Center
375 East Chicago Avenue
Chicago, IL 60611
macarthurjusticecenter.org

David M. Shapiro
Director, Supreme Court & Appellate Program
david.shapiro@macarthurjustice.org
O 312 503 0711
F 312 503 1272

November 9, 2020
VIA ELECTRONIC FILING
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Stair v. Jackson, Case No. 20-183
Dear Mr. Harris,
The petition for certiorari in this matter was filed on August 13, 2020, and placed on the
docket on August 19, 2020. Respondent was previously granted two 30-day extensions of time to
file a response to November 18, 2020.
Pursuant to Supreme Court Rule 30.4, Respondent respectfully requests a third 30-day
extension of time to file his response up to and including December 18, 2020.
This extension is necessary because undersigned counsel requires more time to review the
record in this matter and respond to the petition. In addition, undersigned counsel has the following
litigation deadlines during the period of the sought extension:


A petition for rehearing in the United States Court of Appeals for the Tenth Circuit in
Strain v. Regalado, No. 19-5071, on November 13, 2020;



A reply brief in the United States Court of Appeals for the Third Circuit in Talley v.
Clark, No. 20-1298, on November 17, 2020;



A reply in the Illinois Supreme Court in Beaman v. Freesmeyer, No. 125617, on
November 25, 2020;



An en banc opening brief in the United States Court of Appeals for the Eleventh
Circuit in Hoever v. Marks, No. 17-10792, on December 2, 2020; and



A reply brief in the Illinois Appellate Court in State v. Plummer, No. 1-20-0299, due
on December 14, 2020

Counsel for Petitioner does not oppose this request.

Hon. Scott S. Harris
November 9, 2020
Page 2

Respectfully Submitted,

David M. Shapiro
Counsel for Respondent Charles Jackson
cc: Timothy Towery Coates, Counsel for Petitioner

